APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(November 7, 2019). . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court for the Northern District of
Ohio, Eastern Division
(July 27, 2018). . . . . . . . . . . . . . . App. 17
Appendix C Order in the United States District
Court for the Northern District of
Ohio, Eastern Division
(May 8, 2018). . . . . . . . . . . . . . . . App. 21
Appendix D Order in the United States District
Court for the Northern District of
Ohio, Eastern Division
(December 15, 2016) . . . . . . . . . . App. 28
Appendix E Order Denying Petition for Rehearing
and Rehearing En Banc in the United
States Court of Appeals for the Sixth
Circuit
(December 17, 2019) . . . . . . . . . . App. 34

App. 1

APPENDIX A
NOT RECOMMENDED FOR PUBLICATION
File Name: 19a0563n.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-3793
[Filed November 7, 2019]
__________________________
SCOTTIE A. BAGI, et al.,
)
)
Plaintiffs-Appellants, )
)
v.
)
)
CITY OF PARMA, OHIO,
)
)
Defendant-Appellee. )
__________________________ )
ON APPEAL FROM THE
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
BEFORE: BOGGS, SUHRHEINRICH, and WHITE,
Circuit Judges.
PER CURIAM. Plaintiffs Scottie A. Bagi and Gary
Vojtush brought a First Amendment retaliation claim
against their employer, Defendant City of Parma (the
City), under 42 U.S.C. § 1983. The district court

App. 2
granted summary judgment to the City, and we
affirmed. Plaintiffs now appeal the district court’s
orders assessing $173,125.50 in attorney fees against
Plaintiffs under 42 U.S.C. § 1988. We AFFIRM in part,
VACATE in part, and REMAND for further
proceedings.
BACKGROUND
I.

Factual Background

Plaintiffs are firefighters and medics for the Parma
Fire Department (PFD). The PFD has a “Tactical
Emergency Medical Specialist” (TEMS) unit staffed by
internally selected firefighter/medics who are
appointed by the Fire Chief. Id. at 2. In 2004, the PFD
held a test to select firefighters for the unit. Captain
Poznako administered the test, which included a
written portion. Bagi took and failed the written test.
Bagi and some other firefighters had concerns about
the way the 2004 test was administered. Bagi believed
that Captain Poznako had taken steps to manipulate
the test and give certain people a higher score, and
others testified to hearing rumors that the test was
unfair. Between 2004 and 2010, Bagi brought his
concerns to three union presidents, each of whom
looked into the 2004 test and discovered no
impropriety.
In June 2011, the PFD announced an opening on
the TEMS unit and administered another competitive
exam. Bagi did not take the test because he believed
that the person who would be selected for the team had
been pre-determined. In early July 2011—before the
TEMS-unit test was administered—Bagi drafted a

App. 3
letter expressing his concerns that the test would be
administered unfairly. Specifically, Bagi expressed
concern that Captain Poznako would select Firefighter
Fetter—who had fewer years of experience than other
firefighters applying—because Fetter was Poznako’s
friend. Bagi also reiterated his concern that Poznako
had favored his friends in selecting TEMS-unit
members in 2004, stating, “many are under the belief
that Captain Poznako gave the answers, or at least
identified the areas to specifically study, to his friends
and close associates so they could perform well on the
test.” R. 70-2, PID 1172. Bagi, Vojtush, and five other
firefighters signed the letter. Several of the signatories,
including Vojtush, testified that they either did not
read or only partially read the letter before signing it.
Firefighters Fetter and Iacoboni received the
highest scores on the 2011 test and were offered
positions on the TEMS unit. After Fetter and Iacoboni
were selected, Bagi had the letter delivered to Chief
French. Bagi also sent a copy of the letter to the
Human Resources Director with a cover letter
expressing his concerns that Chief French and Captain
Poznako would retaliate against him for writing and
sending the letter.
Assistant Chief Ryan investigated the letter’s
allegations. Ryan concluded that the allegations in the
letter were false, that none of the signatories could
provide any evidence to support the assertions in the
letter, and that the assertions were based on rumor.
Following Ryan’s investigation, the City investigated
the letter’s signatories. Chief French brought charges
against Bagi and Vojtush and recommended that their

App. 4
employment be terminated. In October 2012, after predisciplinary hearings, Safety Director Baeppler
suspended Bagi for thirty-four tours and Vojtush for
thirteen tours. The remaining signatories to the letter
were suspended for two tours.
Bagi grieved the suspension. The arbitrator
concluded that Bagi’s assertions of impropriety were
false and based on “nothing more than suspicions.”
R. 54-35, PID 511-12. However, the arbitrator rejected
the City’s claims that Bagi “made the charges knowing
that they were false” and that his actions were
“motivated by malice.”1 Id. at 512. Based on guidance
from a policy manual, consideration of the less severe
penalties imposed on other signatories, and Bagi’s
“length of service and clean record,” the arbitrator in
February 2014 reduced Bagi’s suspension to eight
tours. Id. at 52-21. The arbitrator reduced Vojtush’s
suspension to two tours, finding that, like the other
signatories who had received a two-tour suspension,
Vojtush’s involvement with the letter was limited to
signing it.
II.

Procedural History

Plaintiffs brought this action against the City in
March 2014, alleging one count of First Amendment

1

When asked later whether he believed Bagi intentionally made
false accusations when writing the letter, Chief French testified,
“I believe he felt there was some truth to the basis of it.” R. 55-1,
PID 696.

App. 5
retaliation under 42 U.S.C. § 1983.2 A plaintiff claiming
First Amendment retaliation must make a prima facie
showing that: “(1) he engaged in constitutionally
protected speech or conduct; (2) an adverse action was
taken against him that would deter a person of
ordinary firmness from continuing to engage in that
conduct; [and] (3) . . . the adverse action was motivated
at least in part by his protected conduct.” Benison v.
Ross, 765 F.3d 649, 658 (6th Cir. 2014) (citation
omitted).
In August 2016, the district court granted summary
judgment for the City. Scottie Bagi, et al., v. City of
Parma, No. 1:14 CV 558, 2016 WL 4418094, *15 (N.D.
Ohio Aug. 19, 2016). The district court held that,
although public employees are not required to prove
the truth of their statements to benefit from the
protections of the First Amendment, Plaintiffs’
statements were outside the realm of constitutional
protection because Plaintiffs made them with reckless
indifference to their falsity. Id. at *14 (citing
Westmoreland v. Sutherland, 662 F.3d 714, 721 (6th
Cir. 2011)).3 The court rested its conclusion on its
findings that: Bagi wrote and signed the letter despite
having no first-hand knowledge that the assertions
therein were true; Vojtush signed the letter without
reading it, having heard only rumors; when he wrote
the letter, Bagi knew that investigations into the 2004

2

Vojtush also brought one claim of retaliation under the Family
and Medical Leave Act, but voluntarily dismissed that claim.
3

The City did not dispute that Plaintiffs suffered adverse
consequences because of their speech (the letter).

App. 6
test had uncovered no evidence of wrongdoing; Bagi did
not take the 2011 test and turned down the opportunity
to attend an informational meeting to learn more about
its administration; Bagi misled other signatories as to
the letter’s purpose and contents; and Plaintiffs wrote
and signed the letter without regard to its
consequences for the PFD and individual firefighters.
Id. at *14-*15. Thus, the court held that, because the
letter was written with reckless disregard to its falsity,
it was not constitutionally protected speech.
Plaintiffs appealed. We affirmed on different
grounds, holding that Plaintiffs’ speech was not
protected because “Bagi’s letter concerned personnel
and internal policy issues, not matters of public
concern.” Bagi v. City of Parma, 714 F. App’x 480, 486
(6th Cir. 2017). We noted that Plaintiffs had not
claimed that “Fetter was unqualified or that the
administration of the 2011 test put the members of the
SWAT team or the public at risk,” and that “Bagi’s
personal interest qua employee appears plainly to
predominate over his interest . . . as a member of the
public.” Id. at 486-87. We did not reach the question
whether Plaintiffs spoke with reckless indifference to
the falsity of their statements.
While the district court’s decision was pending on
appeal, the City moved for attorney fees pursuant to 42
U.S.C. § 1988. The district court granted the motion for
fees, explaining:
As summarized briefly above—and discussed at
length in the Court’s Memorandum Opinion
dated August 19, 2016— Firefighters Bagi and
Vojtush had zero evidence of any wrongdoing by

App. 7
Captain Poznako or Firefighter Fetter prior to
drafting and signing the Letter at the center of
this lawsuit. There was nothing at all to
substantiate the accusations made therein. The
allegations were investigated within the Fire
Department and the Parties proceeded to
arbitrate their claims . . . . Each time, the
investigation of Plaintiffs’ accusations revealed
no evidence of wrongdoing.
Despite not having any evidence to support the
allegations they made against Captain Poznako
and Firefighter Fetter, Plaintiffs then filed this
lawsuit, forcing the City to once again address
Plaintiffs’ meritless claims against Captain
Poznako and Firefighter Fetter and defend itself
against baseless claims that Plaintiffs’ First
Amendment rights had been violated.
Firefighter Bagi drafted—and both he and
Firefighter Vojtush signed—the Letter without
any evidence that the serious and damaging
accusations contained therein were true and
neither acknowledged the fact that the
allegations were repeatedly investigated and
found to be baseless. The City was forced to
expend significant resources . . . The First
Amendment under these facts and
circumstances does not protect statements that
are false or statements that are made with
reckless disregard for their falsity. There was no
basis for this lawsuit. Accordingly, the City is
entitled to attorneys’ fees . . . .

App. 8
R. 101, PID 1783-84. The City submitted
documentation of fees totaling $139,903.50. Plaintiffs
objected to the appropriateness and amount of the fees
and sought a hearing and time for limited discovery.
After prevailing on appeal, the City filed a motion
for supplemental fees accrued on appeal. Plaintiffs
responded with a motion for reconsideration, arguing
that their claim was not frivolous and that no award of
fees was warranted, and renewing their request for
discovery and a hearing on the reasonableness of the
fee award. Plaintiffs also raised the issue of their
inability to pay an assessment of attorney fees in the
six-figure range on their salaries as firefighters. The
district court denied Plaintiffs’ motion for
reconsideration and granted the motion for additional
fees. The court explained:
The First Amendment does not protect false
statements or statements made with reckless
indifference to their falsity . . . . As previously
determined by this Court, the Letter drafted by
Mr. Bagi included serious and damaging
accusations against others which Plaintiffs
either knew, or should have known, to be false,
and the statements made therein were not
entitled to First Amendment protection.
Further, the Sixth Circuit held that regardless
of whether or not the statements were false or
made with reckless disregard to their falsity, the
subject matter of the Letter did not touch on a
matter of public concern. The serious allegations
made in the Letter were false and Plaintiffs’
claims in this case were both unreasonable and

App. 9
without foundation. The Court finds no basis
upon which to revisit its prior ruling and no
basis upon which to deny the City’s request to
supplement its attorney fees calculation. This is
precisely the type of case in which an award of
attorney fees is both warranted and appropriate.
R. 116, PID 1958-59. Following additional submissions
by the City, the district court found that limited
discovery and a hearing were not necessary or
warranted and awarded the City a total of $173,125.50
in fees.
DISCUSSION
I.

Standard of Review

This court reviews a district court’s award of
attorney fees under an abuse of discretion standard.
Wilson-Simmons v. Lake Cty. Sheriff’s Dep’t, 207 F.3d
818, 823 (6th Cir. 2000). “In light of a district court’s
superior understanding of the litigation and the
desirability of avoiding frequent appellate review of
what are essentially factual matters, an award of
attorneys’ fees under § 1988 is entitled to substantial
deference.” Id. (quoting Reed v. Rhodes, 179 F.3d 453,
469 n. 2 (6th Cir. 1999).
II.

Whether the District Court Abused its
Discretion in Awarding Fees to the City

An award of attorney fees to a defendant in a civilrights action “is an extreme sanction, and must be
limited to truly egregious cases of misconduct.” Jones
v. The Continental Corp., 789 F.2d 1225, 1232 (6th Cir.
1986). In Christiansburg Garment Co. v. EEOC, the

App. 10
Supreme Court held that attorney fees should not be
assessed against a civil-rights plaintiff unless the
action is “frivolous, unreasonable, or groundless, or the
plaintiff continued to litigate after it clearly became
so.” 434 U.S. 412, 421 (1978).4 Application of these
standards requires examining a plaintiff’s basis for
filing suit, and awards to prevailing defendants depend
on the factual circumstances of each case. Smith v.
Smyth-Cramer Co., 754 F.2d 180, 183 (6th Cir. 1985).
Although a finding that a plaintiff brought a claim in
bad faith will warrant an award of attorney fees, an
action may be frivolous, unreasonable, or without
foundation even if brought in good faith. 434 U.S. at
421. The Christiansburg Court cautioned that district
courts should “resist the understandable temptation to
engage in post hoc reasoning by concluding that,
because a plaintiff did not ultimately prevail, his action
must have been unreasonable or without foundation.”
Id. The Court explained that “[t]his kind of hindsight
logic could discourage all but the most airtight claims.”
Id.
Plaintiffs argue that the district court relied on post
hoc reasoning in awarding fees to the City. Plaintiffs
rely on Riddle v. Egensperger, 266 F.3d 542, 551 (6th
Cir. 2001), where we reversed a district court’s award
of attorney fees to prevailing defendants in a civilrights action after finding that the district court

4

Christiansburg involved an award of attorney fees to a prevailing
defendant in an action brought under Title VII of the Civil Rights
Act. In Hughes v. Rowe, the Supreme Court extended the
Christiansburg standards to actions brought under 42 U.S.C.
§ 1983. 449 U.S. 5, 14-15 (1980).

App. 11
impermissibly relied on hindsight. Plaintiffs note that
like the defendants in Riddle, the City did not move to
dismiss their claim. They also point out that, as in
Riddle, the district court did not use the word
“frivolous” until it granted the City’s motion for fees.
Although we are mindful of the Christiansburg Court’s
warning against relying on post hoc reasoning, we
cannot say based on these factors alone that the district
court relied on hindsight logic in this case. The district
court consistently found that Plaintiffs’ First
Amendment claim was “wholly without merit” and
“baseless,” and that there was no evidence to support
it. R. 90, PID 1668; R. 101, PID 1784. The record
supports those findings; Plaintiffs admitted that they
wrote and signed the letter without any direct
knowledge that the statements made were true.
Moreover, at the time Plaintiffs brought this action
the law in this Circuit was settled that the First
Amendment does not protect statements made with
reckless indifference to their falsity. See Westmoreland
v. Sutherland, 662 F.3d 714, 721 (6th Cir. 2011) (the
First Amendment does not protect employee
“statements [made] with knowledge of, or reckless
indifference to, their falsity”). In reviewing a district
court’s award of § 1988 fees to defendants, we have
previously considered whether the area of law
underlying a plaintiff’s claim is well-settled. See Tarter
v. Raybuck, 742 F.2d 977, 988 (6th Cir. 1984)
(overturning an assessment of fees against a § 1983
plaintiff where the nature of the plaintiff’s Fourth
Amendment rights were not well-settled). In this case,
that factor favors upholding the award.

App. 12
We conclude that the district court did not abuse its
discretion in awarding fees on the ground that
Plaintiffs’ suit was frivolous, unreasonable, or
groundless under the Christiansburg standards.
III.

Whether the District Court Abused its
Discretion by Denying Discovery or a
Hearing

Plaintiffs argue that the district court abused its
discretion by denying limited discovery or a hearing on
the reasonableness of the fee award. We disagree.
Although limited discovery and a hearing on the issue
of attorney fees is often appropriate, Plaintiffs have not
identified what information they would have sought
had discovery been permitted. Instead, they argue only
that “discovery on the reasonableness of the fees” was
warranted. Appellants’ Br. at 23. On these facts, we
find no basis to conclude that the district court abused
its discretion in denying Plaintiffs discovery and a
hearing on the reasonableness of the fee award.
IV.

Reasonableness of Fee Award

Finally, Plaintiffs argue that the district court’s
failure to address Plaintiffs’ ability to pay the
considerable fee award rendered its explanation
inadequate.
“The starting point for determining a reasonable
[attorney] fee is the lodestar, which is the product of
the number of hours billed and a reasonable hourly
rate.” Gonter v. Hunt Valve Co., Inc., 510 F.3d 610, 616
(6th Cir. 2007) (citing Hensley v. Eckerhart, 461 U.S.
424, 438 (1983)). “The district court’s calculation of the
lodestar . . . deserves substantial deference, but only

App. 13
when the court provides a clear and concise
explanation of its reasons for the fee award.” Id.
(internal quotations omitted). When fees are assessed
against plaintiffs in a civil-rights action, concerns
about the reasonableness of the award are “heightened”
because “such an award is an extreme sanction.”
Garner v. Cuyahoga Cty. Juv. Ct., 554 F.3d 624, 643
(6th Cir. 2009) (emphasis in original).
In Garner v. Cuyahoga County Juvenile Court, we
reviewed the reasonableness of a district court’s award
of fees to a prevailing defendant in a § 1983 case. Id. at
642. Like Plaintiffs here, the Garner plaintiffs did not
take issue with the district court’s basic calculation of
the lodestar value; instead, they argued that the
district court abused its discretion by failing to consider
their abilities to pay. Id. We held that although the
plaintiffs had the burden to prove their inability to pay,
the district court’s failure to address information in the
record regarding the plaintiffs’ modest salaries
amounted to a failure to adequately explain its reasons
for the award, which made meaningful appellate
review impossible. Id. at 643. We therefore declined to
grant deference to the district court’s calculations and
remanded for consideration of the plaintiffs’ abilities to
pay. Id.
Although Plaintiffs did not provide documentation
of their income, Plaintiffs did raise the issue of the
parties’ disparate means in their Memorandum in
Opposition to the City’s initial Motion for Bill of Costs
and Fees and their response to the City’s Supplemental
Motion for Fees. The district court, however, did not
address Plaintiffs’ ability to pay anywhere in its

App. 14
opinions. As in Garner, that omission makes it
impossible for this court to determine whether the
issue was considered or properly analyzed. Because the
district court failed to provide a “clear and concise
explanation of its reasons for the fee award,” we
remand to allow Plaintiffs an opportunity to
demonstrate their inability to pay and the district court
to reconsider the amount of fees assessed. Id. at 643.
We are satisfied that the assigned district judge can
assess the appropriate award objectively.
CONCLUSION
For the foregoing reasons, we AFFIRM the district
court’s finding that the City should be granted attorney
fees under § 1988. With respect to the reasonableness
and amount of the award, we VACATE and REMAND
with instructions to allow Plaintiffs an opportunity to
demonstrate their inability to pay.
HELENE N. WHITE, Circuit Judge, dissenting.
I concur in the per curiam opinion except as to
Section II. Because the district court failed to correctly
apply Christiansburg Garment Co. v. EEOC, 434 U.S.
412 (1978), and there was some basis for Plaintiffs’
claim, I would reverse the award of fees.
In assessing fees against Plaintiffs, the district
court focused on the falsity of the allegations made in
the 2011 letter. Specifically, the court found that the
lawsuit was meritless, and an award of fees against
Plaintiffs was warranted, because Plaintiffs “had zero
evidence of any wrongdoing” by the PFD and brought
this lawsuit anyway, thereby “forcing the City to once
again address Plaintiffs’ meritless claims against

App. 15
Captain Poznako and Firefighter Fetter and defend
itself against baseless claims that Plaintiffs’ First
Amendment rights had been violated.” R. 101, PID
1783-84.
This was a misapplication of the Christiansburg
standards. The district court’s statement that the
Plaintiffs’ lawsuit “forc[ed] the City to once again
address Plaintiffs’ meritless claims against Captain
Poznako and Firefighter Fetter” is incorrect. R. 101,
PID 1784. Plaintiffs’ First Amendment claim alleged
that they suffered adverse employment consequences
because of their protected speech; this claim is different
from the allegations they made within the PFD against
Poznako and Fetter. The district court should have
focused not on whether Plaintiffs presented evidence to
support the allegations in the letter, but on whether
they had any basis to bring a First Amendment
retaliation claim. Smith v. Smythe-Cramer Co., 754
F.2d 180, 183 (6th Cir. 1985). Plaintiffs’ actions leading
up to the suit are only part of that inquiry; the district
court should have also examined whether the City’s
actions could reasonably have led Plaintiffs to believe
they had a basis for bringing their claim. Riddle v.
Egensperger, 266 F.3d 542, 558 (6th Cir. 2001) (Clay,
J., concurring).
There was at least some basis in the record for
Plaintiffs to bring this action. Plaintiffs unquestionably
experienced adverse consequences because of their
speech, including suspensions that the arbitrator
concluded were unduly severe. As Chief French
testified and the arbitrator concluded, Plaintiffs
believed there was some truth to the assertions made

App. 16
in the letter. Even accepting that their assertions were
in fact not true, this concession and the arbitrator’s
statement gave Plaintiffs a reasonable basis to dispute
that their speech was made with reckless indifference
to its falsity. Likewise, given the PFD’s status as a
public entity and Plaintiffs’ concern that Poznako had
chosen members of a SWAT team based on favoritism
rather than qualifications, Plaintiffs had some basis to
argue that their speech was a matter of public concern.
The law surrounding public-employee speech is
complex, and whether a matter is of public or personal
concern is not always apparent. To assess attorney fees
against Plaintiffs under these circumstances risks
discouraging future plaintiffs from filing suit, thus
undermining “the efforts of Congress to promote the
vigorous enforcement” of civil rights laws.
Christiansburg, 434 U.S. at 422.
In sum, the fact that the allegations made by
Plaintiffs in the letter were false did not provide the
necessary foundation for an assessment of fees against
Plaintiffs. Because there was some basis for Plaintiffs’
First Amendment retaliation claim, it was not
frivolous, unreasonable, or groundless. For these
reasons, I conclude that the district court applied the
Christiansburg standards incorrectly and abused its
discretion in awarding fees to the City.

App. 17

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
CASE NO. 1:14 CV 558
JUDGE DONALD C. NUGENT
[Filed July 27, 2018]
__________________________
SCOTTIE A. BAGI, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
CITY OF PARMA,
)
)
Defendant.
)
__________________________ )
ORDER
As set forth in this Court’s prior Orders, “Attorney’s
fees may be awarded to prevailing Defendants in civil
rights litigation under 42 U.S.C. § 1988 upon a finding
that the suit was frivolous, unreasonable, or without
foundation.” Meyers v. City of Chardon, Case No. 1:14
CV 2340, 2015 U.S. Dist. LEXIS 48292, at *33 (N.D.
Ohio Apr. 13, 2015) (citing Hughes v. Rowe, 449 U.S. 5,
14 (1980); Christiansburg Garment Co. v. EEOC, 434
U.S. 412, 421 (1978); Wolfe v. Perry, 412 F.3d 707, 720

App. 18
(6th Cir. Mich. 2005); N.E. v. Hedges, 391 F.3d 832, 836
(6th Cir. Ky. 2004)). “Reasonable attorney fees include
preparation of post-judgment filings and appeals.”
Black-Hosang v. Mendenhall, Case No. 2:01 CV. 623,
2006 U.S. Dist. LEXIS 102192 (S.D. Ohio 2006).
On December 15, 2016, this Court granted
Defendant, City of Parma’s Motion for Bill of Costs and
Fees. (Docket #101.) On May 8, 2018, this Court
granted the City of Parma’s Motion for Additional
Attorney Fees incurred during Plaintiffs’ appeal of the
Court’s prior order granting summary judgment in
favor of the City of Parma. (Docket # 116.) The Court’s
determination on summary judgment, as well as both
Orders granting attorney fees, included a detailed
analysis and explanation regarding why this lawsuit,
in particular, satisfied the “‘frivolous, unreasonable, or
without foundation” requirement for an award attorney
fees under to 42 U.S.C. § 1988.
The City of Parma originally requested attorney
fees in the amount of $139,903.50, broken down as
follows:
Biller

Hours

Rate

Amount

Michelle J.
Sheehan

574.60

$185.00 $106,301.00

Stephanie
Hathaway

50.10

$185.00

Jonathon
Krol

62.80

$185.00 $ 11,618.00

Paralegal

138.70

$85.00 $ 11,789.50

$ 9,268.50

App. 19
Law Clerk

10.90

$85.00

$ 926.50

The City of Parma, and asks for an additional
$33,223.00 for attorney fees incurred during the
appeal, broken down as follows:
Biller
Michelle J.
Sheehan

Hours

Rate

Amount

155.30

$195.00

$30,283.50

Brian D.
Sullivan

3.00

$195.00

$ 585.00

Holly M.
Wilson

3.00

$195.00

$ 585.00

Jonathon
Krol

2.10

$195.00

$ 409.50

Paralegal

12.30

$85.00

$ 1,045.50

Law Clerk

3.70

$85.00

$ 314.50

The supporting documentation submitted by
Defense Counsel regarding the qualifications and
experience of Counsel; explanation of hourly billing
rates; and, work performed, as well as this Court’s
thorough review, demonstrates without question the
reasonableness of the hourly rates and hours expended
by Counsel relative to both the underlying litigation
and the appeal. The hourly rates charged in this case
by Defense Counsel are well-below the prevailing
market rate for attorneys with similar experience and
qualifications in Cleveland, Ohio, and there is nothing
within the billing records submitted by Counsel that

App. 20
suggests duplicative or unnecessary charges.1 Plaintiffs
have had a full and fair opportunity to respond to the
motions and supporting documentation filed by the
City of Parma and their arguments have been
thoughtfully considered by the Court. A hearing and/or
additional discovery are neither necessary nor
warranted under the facts and circumstances in this
case.
Conclusion
For the foregoing reasons, Defendant, the City of
Parma, is hereby awarded attorney fees in the amount
of $173,125.50.
IT IS SO ORDERED.

s/___________________________
DONALD C. NUGENT
United States District Judge
DATED: July 27, 2018

1

Counsels’ standard hourly rate, given their years of expertise and
qualifications to handle this type of litigation, is significantly
higher than $185/$195 reduced hourly rate agreed upon between
Counsel and the City of Parma. See Docket # 102 and 109,
Declarations of Lead Counsel Michelle Sheehan, and attached
Exhibits.

App. 21

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
CASE NO. 1:14 CV 558
JUDGE DONALD C. NUGENT
[Filed May 8, 2018]
__________________________
SCOTTIE A. BAGI, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
CITY OF PARMA,
)
)
Defendant.
)
__________________________ )
ORDER
This matter is before the Court on the
Supplemental Motion for Additional Attorney Fees
filed by Defendant, City of Parma (“the City”) (Docket
#112), and the Motion for Reconsideration filed by
Plaintiffs, Scottie A. Bagi and Gary C. Vojtush (Docket
#114). The City seeks costs and attorney fees from
Plaintiffs pursuant to 28 U.S.C. §§ 1920 and 1924, 42
U.S.C. § 1988, and Fed. R. Civ. P. 54. Previously, the
Court held that the City was entitled to reasonable

App. 22
attorney fees incurred, as well as costs in the amount
of $15,463.26, as the prevailing party in this case.
(Docket #101.) Thereafter, the City submitted attorney
fee invoices for the Court’s review.
The City seeks to supplement its original attorney
fee documentation to include fees associated with
Plaintiffs’ unsuccessful appeal of the Court’s Order
granting the City’s Motion for Summary Judgment.
(Docket #112.) On April 2, 2018, Plaintiffs filed a
Motion for Reconsideration and Response to
Defendants Motion for Appellate Fees. (Docket 114.)
Plaintiffs argue that the City has failed to
demonstrate that Plaintiffs’ appeal was “frivolous or
not well taken” and that attorney fee awards against a
plaintiff should be limited to the most egregious cases
so as not to dissuade individuals from pursuing their
legal rights. Plaintiffs ask the Court to reverse its prior
determination that the City is entitled to attorney fees
and award no attorney fees in this case.
The City filed its Reply in Support of Supplemental
Motion for Additional Attorney Fees and Opposition to
Reconsideration of this Court’s Award of Attorneys’
Fees. (Docket #115.) The City argues that 42 U.S.C.
§ 1988 permits an award of reasonable attorney fees to
the prevailing party, including fees incurred on appeal;
that this Court has already determined that Plaintiffs’
lawsuit was “frivolous, unreasonable, or without
foundation;” that Plaintiffs knew when their lawsuit
and appeal were filed that their claim was meritless;
and, that a fee award in this case is supported by the
public policy against baseless lawsuits.

App. 23
Discussion
“Attorney’s fees may be awarded to prevailing
Defendants in civil rights litigation under 42 U.S.C.
§ 1988 upon a finding that the suit was frivolous,
unreasonable, or without foundation.” Meyers v. City of
Chardon, Case No. 1:14 CV 2340, 2015 U.S. Dist.
LEXIS 48292, at *33 (N.D. Ohio Apr. 13, 2015) (citing
Hughes v. Rowe, 449 U.S. 5, 14 (1980); Christiansburg
Garment Co. v. EEOC, 434 U.S. 412, 421 (1978); Wolfe
v. Perry, 412 F.3d 707, 720 (6th Cir. Mich. 2005); N.E.
v. Hedges, 391 F.3d 832, 836 (6th Cir. Ky. 2004)).
“Reasonable attorney fees include preparation of postjudgment filings and appeals.” Black-Hosang v.
Mendenhall, Case No. 2:01 CV. 623, 2006 U.S. Dist.
LEXIS 102192 (S.D. Ohio 2006).
Plaintiff Bagi drafted, and both he and Plaintiff
Vojtush signed, a Letter falsely accusing fellow
employees of wrongdoing. The allegations in the Letter
were repeatedly investigated and found to be
unsubstantiated. Plaintiffs then filed this lawsuit
arguing that the statements made in the Letter were
protected speech under the First Amendment. This
Court thoroughly and exhaustively reviewed the
evidence of record in this case and determined that the
Letter was written, and signed off on, without any
evidence that the serious and damaging accusations
contained therein were true and that Plaintiffs’ claims
were wholly meritless. As stated in this Court’s
Memorandum Opinion dated August 19, 2016:
Plaintiffs’ speech – the Letter – was written and
signed off on with reckless indifference to
whether the statements contained therein were

App. 24
false and, as such, is not a matter of public
concern and not protected employee speech
under the First Amendment. This lawsuit, like
the allegations made by Plaintiffs in the Letter,
is wholly without merit.
Firefighter Bagi drafted, and Firefighters Bagi
and Vojtush both signed the Letter, despite the
fact that there was no evidence whatsoever of
any wrongdoing in connection with the 2004 or
2011 TEMS Tests; no evidence of bias; and, no
evidence that Firefighter Fetter was not
qualified or that his selection was based on
something other than merit.
Further, as stated in this Court’s December 15,
2016 Order granting the City’s request for costs and
attorney fees:
. . . Firefighters Bagi and Vojtush had zero
evidence of any wrongdoing by Captain Poznako
or Firefighter Fetter prior to drafting and
signing the Letter at the center of this lawsuit.
There was nothing at all to substantiate the
accusations made therein. The allegations were
investigated within the Fire Department and the
Parties proceeded to arbitrate their claims
pursuant to the applicable Collective Bargaining
Agreement. Each time, the investigation of
Plaintiffs’ accusations revealed no evidence of
wrongdoing.
Despite not having any evidence to support
the allegations they made against Captain
Poznako and Firefighter Fetter, Plaintiffs then

App. 25
filed this lawsuit, forcing the City to once again
address Plaintiffs’ meritless claims against
Poznako and Firefighter Fetter and defend itself
against baseless claims that Plaintiffs’ First
Amendment rights had been violated.
Firefighter Bagi drafted – and both he and
Firefighter Vojtush signed – the Letter without
any evidence that the serious and damaging
accusations contained therein were true and
neither acknowledged the fact that the
allegations were repeatedly investigated and
found to be baseless. . . The First Amendment
under these facts and circumstances does not
protect statements that are false or statements
made with reckless disregard for their falsity.
There was no basis for this lawsuit.
On October 26, 2017, the Sixth Circuit Court of
Appeals affirmed summary judgment in favor of the
City, finding that the Letter did not discuss matters of
public concern and therefore was not protected speech,
ending its analysis. See Bagi v. City of Parma, Case
No. 16-4011, 2017 U.S. App. LEXIS 21403 (6th Cir. Ohio
Oct. 26, 2017). (“Because we affirm on this alternative
ground, we need not reach the question the district
court found dispositive, whether Plaintiffs spoke with
reckless indifference to the falsity of the content of
their speech.”)
The First Amendment does not protect false
statements or statements made with reckless
indifference to their falsity, nor in the employment
context does it extend to protect speech that does not
implicate matters of public concern. As previously

App. 26
determined by this Court, the Letter drafted by Mr.
Bagi included serious and damaging accusations
against others which Plaintiffs either knew, or should
have known, to be false, and the statements made
therein were not entitled to First Amendment
protection. Further, the Sixth Circuit held that
regardless of whether or not the statements were false
or made with reckless disregard as to their falsity, the
subject matter of the Letter did not touch on a matter
of public concern. The serious allegations made in the
Letter were false and Plaintiffs’ claims in this case
were both unreasonable and without foundation. The
Court finds no basis upon which to revisit its prior
ruling that the City is entitled to attorney fees and
costs and no basis upon which to deny the City’s
request to supplement its attorney fees calculation.
This is precisely the type of case in which an award of
attorney fees is both warranted and appropriate.
Conclusion
The Supplemental Motion for Additional Attorney
Fees (Docket #112) filed by Defendant, City of Parma,
is hereby GRANTED. The Motion for Reconsideration
(Docket #114) filed by Plaintiffs, Scottie A. Bagi and
Gary C. Vojtush, is hereby DENIED. The City shall
submit a revised attorney fee invoice within 1 0 days of
this Order. Plaintiffs shall have 10 days thereafter to
object to the City’s attorney fee calculation.
IT IS SO ORDERED.

App. 27
s/___________________________
DONALD C. NUGENT
United States District Judge
DATED: May 8, 2018

App. 28

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
CASE NO. 1:14 CV 558
JUDGE DONALD C. NUGENT
[Filed December 15, 2016]
__________________________
SCOTTIE A. BAGI, ET AL., )
)
Plaintiff,
)
)
v.
)
)
CITY OF PARMA,
)
)
Defendant.
)
__________________________ )
ORDER
This matter is before the Court on the Motion for
Bill of Costs and Fees filed by Defendant, City of
Panna. (Docket #93.) The City seeks costs and
attorneys’ fees from Plaintiffs pursuant to 28 U.S.C.
§§ 1920 and 1924, 42 U.S.C. § 1988, and Fed. R. Civ.
P. 54. Plaintiffs filed their Opposition Brief on
September 30, 2016; the City filed a Reply Brief on
October 7, 2016; and, Plaintiffs filed an additional
Response Brief on October 17, 2016. (Docket #s 95, 95

App. 29
and 100.) The Court has thoroughly reviewed each, as
well as the documentation submitted therewith and the
applicable statutory and case law.
I.

Background

On October 19, 2016, the Court granted the City’s
Motion for Summary Judgment, finding that the false
accusations leveled by Plaintiffs against Captain
Poznako and Firefighter Fetter were not entitled to
First Amendment protection. As clearly and
unequivocally stated in this Court’s Memorandum
Opinion, Plaintiffs had no evidence and no basis
whatsoever to accuse Captain Poznako or Firefighter
Fetter of any wrongdoing. The accusations were, at
best, made with reckless disregard for the fact that
they were false; did not constitute protected speech
under the First Amendment; and, Plaintiffs’ lawsuit
was, without question, meritless.
II.

Costs and Attorneys’ Fees.

The City seeks reimbursement for costs in the
amount of $15,463.26, as itemized in the amended
Itemization of Costs attached to its Reply Brief.
(Docket # 96-1.) Rule 54(d)(1) of the Federal Rules of
Civil Procedure provides, “Unless a federal statute,
these rules, or a court order provides otherwise, costs
– other than attorney’s fees – should be allowed to the
prevailing party.” Fed. R. Civ. P. 54(d)(1). “This
language creates a presumption in favor of awarding
costs, but allows denial of costs at the discretion of the
trial court.” Soberay Mach. & Equipment Co. v. MRF
Ltd., Inc., 181 F.3d 759, 770 (6th Cir. Ohio 1999)
(quoting White & White, Inc. v. American Hospital

App. 30
Supply Corp., 786 F.2d 728, 730 (6th Cir. Mich.1986)).
In determining whether to deny a request for costs, the
Court may consider whether the taxable costs are
necessary or reasonable; whether the prevailing party
should be penalized for unnecessarily prolonging trial
or for injecting unmeritorious issues; whether the
prevailing party’s recovery is so insignificant that the
judgment amounts to a victory for defendant; and,
whether the litigation is close and difficult. The Court
may also consider the good faith of the losing party and
the “propriety with which the losing party conducts the
litigation.” White, 786 F.2d at 730.
28 U.S.C. § 1920, entitled Taxation of Costs, lists
those expenses which may be taxed as costs, providing
as follows:
A judge or clerk of any court of the United States
may tax as costs the following:
(1) Fees of the clerk and marshal;
(2) Fees for printed or electronically recorded
transcripts necessarily obtained for use in the
case;
(3) Fees and disbursements for printing and
witnesses;
(4) Fees for exemplification and the costs of
making copies of any materials where the copies
are necessarily obtained for use in the case;
(5) Docket fees under section 1923 of this title
[28 USCS § 1923];
(6) Compensation of court appointed experts,
compensation of interpreters, and salaries, fees,
expenses, and costs of special interpretation

App. 31
services under section 1828 of this title [28
USCS § 1828].
The costs sought by the City are permitted under
Section 1920; were both reasonable and necessary; and,
no reduction is warranted. Accordingly, the City is
entitled to costs in the amount of $15,463.26.
The City also seeks attorneys’ fees, estimated to be
between $110,000 and $125,000, on the basis that the
claims asserted by Plaintiffs in this case were
unreasonable and frivolous.1 “Attorney’s fees may be
awarded to prevailing Defendants in civil rights
litigation under 42 U.S.C. § 1988 upon a finding that
the suit was frivolous, unreasonable, or without
foundation.” Meyers v. City of Chardon, Case No. 1:14
CV 2340, 2015 U.S. Dist. LEXIS 48292, at *33 (N.D.
Ohio Apr. 13, 2015) (citing Hughes v. Rowe, 449 U.S. 5,
14 (1980); Christiansburg Garment Co. v. EEOC, 434
U.S. 412, 421 (1978); Wolfe v. Perry, 412 F.3d 707, 720
(6th Cir. Mich. 2005); N.E. v. Hedges, 391 F.3d 832, 836
(6th Cir. Ky. 2004)).
As summarized briefly above – and discussed at
length in the Court’s Memorandum Opinion dated
August 19, 2016 – Firefighters Bagi and Vojtush had
zero evidence of any wrongdoing by Captain Poznako or
Firefighter Fetter prior to drafting and signing the
Letter at the center of this lawsuit. There was nothing

1

The City notes that its estimation of fees does not include fees
related to Plaintiff Vojtush’s FMLA claim which was voluntarily
dismissed, nor does it include any fees related to Plaintiffs’ appeal
of this Court’s August 19, 2016 Order granting summary judgment
in favor of the City.

App. 32
at all to substantiate the accusations made therein.
The allegations were investigated within the Fire
Department and the Parties proceeded to arbitrate
their claims pursuant to the applicable Collective
Bargaining Agreement. Each time, the investigation of
Plaintiffs’ accusations revealed no evidence of
wrongdoing.
Despite not having any evidence to support the
allegations they made against Captain Poznako and
Firefighter Fetter, Plaintiffs then filed this lawsuit,
forcing the City to once again address Plaintiffs’
meritless claims against Captain Poznako and
Firefighter Fetter and defend itself against baseless
claims that Plaintiffs’ First Amendment rights had
been violated. Firefighter Bagi drafted – and both he
and Firefighter Vojtush signed – the Letter without
any evidence that the serious and damaging
accusations contained therein were true and neither
acknowledged the fact that the allegations were
repeatedly investigated and found to be baseless. The
City was forced to expend significant resources –
countless hours and great expense – ultimately borne
by the taxpayer. The First Amendment under these
facts and circumstances does not protect statements
that are false or statements that are made with
reckless disregard for their falsity. There was no basis
for this lawsuit. Accordingly, the City is entitled to
attorneys’ fees and shall submit documentation within
10 days of this Order. Plaintiffs shall have 10 days
thereafter to respond.

App. 33
III.

Conclusion.

The Motion for Bill of Costs and Fees filed by
Defendant, City of Parma (Docket #93), is hereby
GRANTED. The City is awarded costs in the amount of
$15,463.26 and shall submit documentation of its
attorney’s fees within 10 days of this Order. Plaintiffs
shall have 10 days thereafter to respond.
IT IS SO ORDERED.

s/___________________________
DONALD C. NUGENT
United States District Judge
DATED: December 14, 2016

App. 34

APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-3793
[Filed December 17, 2019]
__________________________
SCOTTIE A. BAGI, ET AL., )
)
Plaintiffs-Appellants, )
)
v.
)
)
CITY OF PARMA, OHIO,
)
)
Defendant-Appellee. )
__________________________ )
BEFORE: BOGGS,
WHITE, Circuit Judges.

SUHRHEINRICH,

and

The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has requested
a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied. Judge White
would grant rehearing for the reasons stated in her
dissent.

App. 35
ENTERED BY ORDER OF THE COURT
s/_____________________________
Deborah S. Hunt, Clerk

